Meghan Christine Beku3ki
P.O. Box 105
Huletts Landing, NY 12841
June 6, 2021.
Clerk of the Court
Supreme Court of the United States
1 First Street, N.E.,
Washington, DC 20543
Re: Meghan Belaski et at, v. Securities & Exchange Commission, Case No. 20-1662
Dear Clerk of the Court:
I am a pro-se Petitioner in the above referenced case.
Following Rule 372(a) of the Rules of the Supreme Court of the United States,
Petitioners respectfully grant blanket consent to the filing of amicus curiae briefs in
this case.
This letter has been sent to the Solicitor General of the United States and the
Respondent in this case as well.
Thank you kindly.

Meghan Christine Belaski
Pro-se Petitioner

